                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A05030008
                     '
                                                                                     11           Page 1 of 1



         January 9,2006

         This matter involves the reopening of a prior case1containing an allegation that an individual2was
         retaliated against by the subject3because he disclosed to NSF that a colleague may have committed
         research misconduct. The original allegation was brought to NSF OIG many years ago. We
         reviewed the old case file, relevant federal and state documents and other materials. Given the
         passage of time, the resulting difficulty in investigatingthis matter, an analysis of the relevant federal
         and state documents and a consideration of the remedial actions that subject has taken to date, we
         conclude that there is no additional investigation or action necessary for NSF OIG to take at the
         present time.

         Accordingly, this case is closed.




         ' [redacted]
           [redacted]
           [redacted]




NSF OIG Form 2 (11/02)
